    Office of Inspector General
Federal Communication Commission




         Semiannual Report to Congress
         October 1, 2011 through March 31, 2012
               The Federal Communications Commission




                                        (left to right)

               Commissioner McDowell, Chairman Genachowski,

                                Commissioner Clyburn




FCC OIG—Semiannual Report to Congress           2         October 1, 2011— March 31, 2012
                                                           Cover Letter

OFFICE OF INSPECTOR GENERAL

DATE:                 March 31, 2012

TO:                   Chairman, Federal Communications Commission

REPLY TO
ATTN OF:              Inspector General

SUBJECT:              Semiannual Report to Congress


In accordance with Section 5 of the Inspector General Act, as amended, 5 U.S.C. App. 3 § 5, I
have attached my report summarizing the activities and accomplishments of the Office of the
Inspector General ("OIG") during the six-month period ending March 31, 2012. In accordance
with Section 5(b) of that Act, it would be appreciated if this report, along with any associated
report that you prepare as Chairman of the Federal Communications Commission ("FCC"),
were forwarded to the appropriate Congressional oversight committees within 30 days of your
receipt of this report.


This report describes audits that are in process, as well as those that have been completed during
the preceding six months. OIG investigative personnel continued to address issues referred to,
or initiated by, this office. Where appropriate, investigative and audit reports have been for-
warded to the Commission's management for action.


This office remains committed to maintaining the highest possible standards of professionalism
and quality in its audits, investigations, inspections and consultations and we welcome any com-
ments or suggestions that you might have. Please let me know if you have any questions or
comments.



                                                            David L. Hunt
                                                            Inspector General
Enclosure
cc:    Commissioners
       FCC Chief of Staff
       FCC Managing Director


FCC OIG—Semiannual Report to Congress           3                  October 1, 2011— March 31, 2012
TABLE OF CONTENTS


Introduction                                                             5


OIG Management Activities                                                6


      Office Staffing                                                    6


      Internship Program                                                 6


      Legislative and Policy Matters                                     7


Audit Activities                                                         8


      Financial Audits                                                   8


      Performance Audits                                                 9


      Universal Service Fund (“USF”) Oversight                           12


Investigations                                                           16


      Activity During this Period                                        16


      Significant Activities                                             17


      OIG Hotline                                                        24


Reporting Requirements of the Inspector General Act                      25


Table 1 – OIG Reports with Questioned Costs                              26


APPENDIX – Results of Peer Reviews                                       27

FCC OIG—Semiannual Report to Congress         4       October 1, 2011— March 31, 2012
INTRODUCTION

The Federal Communications Commission ("FCC" or “the Commission”) is an independent
regulatory agency, established by Congress to regulate interstate and foreign communications
by radio, television, wire, satellite and cable. The FCC’s jurisdiction covers the fifty states,
the District of Columbia, the Commonwealth of Puerto Rico and all U.S. territories.

As of the date of this report, the FCC consists of a Chairman and two Commissioners, who are
appointed by the President and confirmed by the United States Senate. Julius Genachowski
serves as Chairman. Robert M. McDowell and Mignon Clyburn serve as Commissioners.
Most of the FCC's employees are located in Washington, D.C. at the Portals II building, which
is located at 445 12th St., S.W., Washington, D.C. Field offices and resident agents are located
throughout the United States.

The Office of Inspector General ("OIG" or “Office”) is dedicated to ensuring compliance with
the requirements of the Inspector General Act and assisting the Chairman in his continuing
efforts to improve the effectiveness and efficiency of the Commission. In accordance with the
Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, the Inspector General
(“IG”), David L. Hunt, reports directly to the Commission. Management matters are coordi-
nated with the Chairman’s office. The IG's staff consists of attorneys, auditors, economists,
investigators, management specialists and support personnel. Principal assistants to the IG
are: Thomas C. Cline, Deputy IG; William K. Garay, Assistant Inspector General ("AIG") for
Audits; Gerald T. Grahe, AIG for Universal Service Fund Oversight; Harold Shrewsberry,
AIG for Management, Jay C. Keithley, Acting AIG for Investigations and Counsel to the IG,
Kathleen O’Reilly, Special Counsel on the Universal Service Fund, and Jon R. Stover, Senior
Legal Advisor.

This semiannual report includes the major accomplishments and activities of the OIG from
October 1, 2011 through March 31, 2012, as well as information on the IG’s goals and future
plans.




FCC OIG—Semiannual Report to Congress           5                   October 1, 2011— March 31, 2012
OIG MANAGEMENT ACTIVITIES

Office Staffing

OIG is comprised of 24 Full Time Equivalent (“FTE”) and 11 Not To Exceed (“NTE”) four-
year term appointed professionals, three FTE and two NTE support personnel, and one intern.
The staffing needs of this office have been described in the last several Semiannual Reports.
At one point this office had 19 NTEs. These positions are funded through monies transferred
from USAC pursuant to the Consolidated Appropriations Act, 2008 (P.L. 110-161) which spec-
ifies that “… $21,480,000 may be transferred from the Universal Service Fund in fiscal year
2008 to remain available until expended, to monitor the Universal Service Fund program to
prevent and remedy waste, fraud and abuse, and to conduct audits and investigations by the Of-
fice of Inspector General….” These employees allow this Office to more aggressively pursue
fraud and waste in the USF program. All monies transferred via the above-mentioned appro-
priations act not being used to pay NTE employee salaries and benefits are used to further sup-
port USF oversight.

Currently, 13 of the original 19 NTE staff remain in OIG. Six of the original 19 have accepted
permanent positions within the FCC or elsewhere in the Federal Government. This personnel
loss affects the OIG’s ability to perform audits and investigations. The OIG requested funds in
the FY 2012 and FY 2013 budget requests for an additional staff of 19 FTE employees. Addi-
tional funds were provided to OIG in the FY 2012 budget authorization, but we were not pro-
vided a specific FTE allocation. We are currently discussing our staffing needs with FCC man-
agement to develop a hiring plan.

Our professional staff consists of well-trained, experienced professionals, most of whom have
one or more professional certifications. In our continuing efforts to increase the expertise of
our auditors, attorneys and investigators, members of this office have attended classes at the
Federal Law Enforcement Training Center, the Inspector General Criminal Investigative Acad-
emy, other Inspectors General training programs and other relevant venues.

Internship Program

OIG welcomes college interns during the fall, spring and summer semesters. Most of these stu-
dents take their internships for credit. Our interns have come from schools across the country.
At the date of this report, we have two interns who attend American University in Washington,
DC. These internships have proven to be rewarding experiences for all participants. Students
leave with a good understanding of how a government agency operates, and they have the op-
portunity to encounter challenges while enjoying the rewards that can come from public ser-
vice. In turn, the Office has benefited from the students’ excellent work performance.




FCC OIG—Semiannual Report to Congress          6                  October 1, 2011— March 31, 2012
OIG MANAGEMENT ACTIVITIES

Legislative and Policy Matters

On February 16, 2002, the IG testified before the Subcommittee on Communications and Tech-
nology of the Committee on Energy and Commerce, United States House of Representatives on
“The Budget and Spending of the Federal Communications Commission.” The IG discussed
budget and staffing issues and described the dollar to employee ratio that limits our ability to
seek more recoveries and initiate audits and investigations. OIG is tasked with overseeing enti-
ties that pay out more than $10 billion annually with less than 40 employees (not including all
our other tasks, which are significant). OIG believes this ratio is outside the norm and should
be addressed, particularly given our recent history of recoveries and the substantial impact OIG
has had on stemming waste and fraud in the VRS industry.

Pursuant to section 4(a)(2) of the Inspector General Act of 1978, 5 U.S.C.A. App. as amended,
our Office monitors and reviews existing and proposed legislation and regulatory proposals for
their potential impact on the OIG and the FCC’s programs and operations. Specifically, we
perform this activity to evaluate legislative potential for encouraging economy and efficiency
while helping to reduce fraud, waste, abuse, and mismanagement.

In addition to legislative developments, OIG continuously monitors FCC policy development
and provides input as appropriate. We have also participated in many surveys and data calls
sponsored by the Council of Inspectors General for Integrity and Efficiency and the Recovery
Accountability and Transparency Board.

Please see the Appendix to this report for information regarding peer reviews as required by
Public Law 111-203.




FCC OIG—Semiannual Report to Congress          7                  October 1, 2011— March 31, 2012
AUDIT ACTIVITIES

Under the authority of the Inspector General Act of 1978, as amended, the OIG conducts inde-
pendent and objective audits and inspections designed to prevent and detect waste, fraud and
abuse and to promote economy, effectiveness and efficiency in FCC programs and operations.
These audits and inspections are conducted in accordance with professional standards. The fol-
lowing sections are highlights of the work conducted by the audit teams during the current re-
porting period.

Financial Audits

Financial statement audits are mandatory and provide reasonable assurance as to whether the
agency’s financial statements are presented fairly in all material respects. Other objectives of
financial statement audits are to provide an assessment of the internal controls over transaction
processing for accurate financial reporting and an assessment of compliance with applicable
laws and regulations.

           Audit of the Federal Communications Commission Fiscal Year 2011
                           Consolidated Financial Statements

In accordance with the Accountability of Tax Dollars Act of 2002, the FCC prepared consoli-
dated financial statements for the 2011 fiscal year in accordance with Office of Management
and Budget (“OMB”) Circular A-136, Financial Reporting Requirements, and subjected them
to audit. The Chief Financial Officers Act of 1990 (“CFO Act”), as amended, requires the
FCC IG, or an independent external auditor selected by the IG, to audit the FCC financial state-
ments in accordance with government auditing standards issued by the Comptroller General of
the United States (“GAGAS”). Under the direction of the Office, KPMG LLP (“KPMG”), an
independent certified public accounting firm, performed the audit of FCC’s FY 2011 consoli-
dated financial statements. The audit was conducted in accordance with GAGAS, OMB Bulle-
tin 07-04, as amended, and applicable sections of the U.S. Government Accountability Office
("GAO")/President’s Council on Integrity & Efficiency (“PCIE”) Financial Audit Manual.
As a result of the 2011 financial statement audit, KPMG issued an independent auditor’s report
with an unqualified opinion on FCC’s financial statements, a report on internal controls over
financial reporting, and a report on compliance and other matters dated November 10, 2011.
KPMG reported that FCC’s financial statements were fairly presented in all material respects
in conformity with U.S. generally accepted accounting principles.

The report on internal controls over financial reporting identified two control weaknesses that
were considered significant deficiencies. The first significant deficiency related to inadequate
financial system functionality and integration. The FCC implemented a new financial system
in October 2011. However, the independent auditor reported that, throughout the fiscal year,
there were several functionality issues with the new system. As a result of the functionality



FCC OIG—Semiannual Report to Congress           8                   October 1, 2011— March 31, 2012
AUDIT ACTIVITIES

issues, additional resources were required by management in order to maintain the accuracy of
system data. The auditor also reported that certain component transactions were tracked manu-
ally and were not integrated with the new system. The second significant deficiency addressed
FCC information technology controls. The auditors identified deficiencies in the FCC’s con-
trol environment, control activities, risk assessment process, and monitoring activities as they
relate to securing FCC ‘s information technology infrastructure. They also noted that, because
the application of information technology is pervasive throughout the FCC, the information
technology weaknesses identified may impact the FCC’s ability to comply with OMB’s internal
control objectives for financial reporting. KPMG did not consider any of the deficiencies iden-
tified during the audit to be material weaknesses. Management was provided with a draft of the
report and in their response to the report management stated they concurred with the report rec-
ommendations.

The Commission is responsible for complying with laws, regulations, and provisions of con-
tracts applicable to the FCC. To obtain reasonable assurance as to whether the Commission’s
financial statements are free of material misstatement, KPMG performed tests of the Commis-
sion’s compliance with provisions of laws, regulations, and contracts that could have a direct
and material effect on the determination of financial statement amounts. The results of this test-
ing identified two instances of non-compliance. First, the Commission was not in compliance
with the Federal Managers Financial Integrity Act because the current financial systems and
processes do not achieve the financial system integration standards set within GAO Standards
for Internal Control in the Federal Government. Second, testing also identified non-compliance
with the Debt Collection Improvement Act due to issues with the new system’s functionality.

As required by Chapter 4700 of the U.S. Department of the Treasury’s Treasury Financial Man-
ual (“TFM”), the FCC prepared special-purpose financial statements for the purpose of provid-
ing financial information to the U.S. Department of the Treasury and GAO to use in preparing
and auditing the Financial Report of the U.S. Government. Under the oversight of the OIG,
KPMG performed an audit of the special purpose financial statements in accordance with GA-
GAS and OMB Bulletin 07-04 as amended. KPMG issued an unqualified opinion on Commis-
sions Special Purpose Financial Statements. The auditor’s report disclosed no significant defi-
ciencies in the internal controls over the financial reporting process for the special purpose
statements and no instances of noncompliance.

Performance Audits

Performance audits are systematic examinations that are conducted to assess the performance of
a government program, activity, or function so that corrective action can be taken, if appropri-
ate. Performance audits include audits of government contracts and grants with private sector
organizations, as well as government and non-profit organizations that determine compliance
with contractual terms, Federal Acquisition Regulations (“FAR”), and internal contract



FCC OIG—Semiannual Report to Congress           9                   October 1, 2011— March 31, 2012
AUDIT ACTIVITIES

administration.

       Fiscal Year 2011 Federal Information Security Management Act Evaluation

The Federal Information Security Management Act (“FISMA”) requires federal agencies to
develop, document, and implement an agency-wide program to provide information security
for the information and information systems that support the operations and assets of the agen-
cy, including those provided or managed by another agency, contractor, or other source. Ac-
cording to FISMA, “information security” means protecting information and information sys-
tems from unauthorized access, use, disclosure, disruption, modification, or destruction in order
to provide integrity, confidentiality and availability.

A key FISMA provision requires that each IG annually evaluate his or her agency’s infor-
mation security programs and practices. These evaluations must include testing of a representa-
tive subset of systems, and an assessment (based on that testing) of the agency’s compliance
with FISMA and applicable requirements. To address this requirement, we contracted with
KPMG to perform the FY 2011 FISMA evaluation.

During this semiannual period, KPMG completed its evaluation and identified several new
findings. Each finding addressed multiple issues. FCC management During this semiannual
period, KPMG completed its evaluation and identified several new findings. Each finding ad-
dressed multiple issues. FCC management was provided with these findings and the related
recommendations. Management provided their comments and stated that they generally con-
curred with the recommendations. Our FY 2011 FISMA Report was issued on December 14,
2011.  
                                                 
                           Digital Copier and Scanner Inspection

The purpose of our inspection was to determine whether the Commission had established poli-
cies and procedures to ensure that digital copiers or scanners, when going off lease or being
deaccessioned, contained no sensitive, confidential, or personal data. This inspection was con-
ducted based on discussions with Commission staff and management. We also reviewed rele-
vant Commission policies and procedures.

We conducted our inspection under the authority of the Inspector General Act of 1978, as
amended, and according to Quality Standards for Inspection and Evaluation, January 2011, is-
sued by the Council of the Inspectors General on Integrity and Efficiency (“CIGIE”).

This inspection found that the Commission has implemented informal processes to address
these issues. Our recommendations noted that the Commission should formally document the-
se processes, along with finalizing and updating related policies and procedures. The results of



FCC OIG—Semiannual Report to Congress          10                  October 1, 2011— March 31, 2012
AUDIT ACTIVITIES

this inspection were discussed with FCC management and staff knowledgeable with the FCC
digital copiers and their comments have been incorporated into this report. The comments re-
ceived were in agreement with the report's conclusions. This inspection report was issued on
October 31, 2011.

            Compliance Audit of Telecommunications Relay Service Providers

The TRS fund compensates communications service providers for the costs of providing inter-
state telecommunications services that enable a person with hearing or speech disabilities to
communicate with a person without hearing or speech disabilities. Video Relay Service
(“VRS”) is form of TRS that enables persons with hearing disabilities who communicate in
American Sign Language to communicate with voice telephone users through video equipment
and an interpreter.

Audit of Relay Service Data Request Forms

Relay Data Service Requests (“RSDR”) forms are annual submissions by TRS providers that
are required by the FCC and used by the TRS Fund administrator for developing and proposing
reimbursement rates to the FCC. Providers are reimbursed from the TRS Fund for minutes of
service provided at the rates established by the FCC. Reimbursements are made through
monthly provider claims that are certified as to their accuracy by senior executives of the TRS
service providers.

The National Exchange Carriers Association (“NECA”) administered the TRS Fund from its
inception in 1993 until June 30, 2011. NECA received contributions to the fund from all pro-
viders of interstate telecommunications services and made disbursements from the fund to eligi-
ble providers of TRS. On March 7, 2011, the Commission awarded a contract to Rolka Loube
Saltzer Associates, LLC (“RLSA”) to subsequently administer the TRS Fund beginning July 1,
2011. As fund administrator, RLSA duties will include the collection and disbursement of TRS
program funds.

The TRS fund has grown substantially since its inception due to the increase in minutes of ser-
vice reimbursements claimed, but fell sharply for the 2010-2011 fund year. The fund’s initial
allotment in 1993 for distributions was $31 million and increased over the next six years to $38
million in 1999. After 1999, the fund increased dramatically each year and reached $891 mil-
lion in the 2009-2010 Fund year.

In fiscal year 2011, we initiated audits of RSDR forms submitted by the ten TRS providers that
were reimbursed for VRS service in calendar years 2008, 2009 and 2010. The purpose of these
audits was to determine whether costs and other information that the VRS providers reported to
NECA on the RSDRs were in compliance with applicable laws and regulations and supported



FCC OIG—Semiannual Report to Congress          11                  October 1, 2011— March 31, 2012
AUDIT ACTIVITIES

by adequate documentation. These audits are now complete.

The audits concluded that the RSDR forms submitted to NECA by the audited providers did
not fully comply with rules and orders, RSDR form instructions, and the applicable regulations
in Title 47 of the Code of Federal Regulations (CFR), Part 64. Specifically, the audits identi-
fied insufficient documentation to support payroll and non-payroll transactions, unallowable
expenses included on the RSDRs, inaccurate or missing data on the RSDRs, and inconsistent
reporting on the RSDR from one reporting year to the next.

These audits provided recommendations to VRS providers to improve the reliability of costs
reported on the RSDR. Additionally, the audits made recommendations to the FCC to ensure
the reliability and usefulness of VRS costs reported on the RSDR and to improve the admin-
istration of the VRS program.

Audit of Federal Funds Paid to Telecommunications Relay Service Providers

In fiscal year 2012, we initiated five audits of five VRS providers that received TRS funds in
calendar year 2011. The objective of these audits is to determine whether all federal funds re-
imbursed to these VRS providers were applied in accordance with TRS program requirements
and supported by adequate documentation. These audits are now in progress.

Universal Service Fund Oversight

The Universal Service Fund (“USF”) Oversight Team currently consists of the AIG, two Direc-
tors, four staff auditors and a Special Counsel for USF. Staff losses have adversely impacted
USF oversight activity. We are currently recruiting for two High Cost oversight staff and hope
to add additional staff.

                                        The USF Program

The FCC’s USF program includes four principal support mechanisms:

   High Cost support ensures that consumers in all regions of the nation have access to and
    pay rates for telecommunications services that are reasonably comparable to those services
    provided and rates paid in urban areas.

   Schools and Libraries support, commonly known as “E-Rate,” provides discounts to assist
    schools and libraries in the United States to obtain affordable telecommunications and In-
    ternet access. The Learning On-the-Go Pilot Program is a pilot program to explore how E-
    Rate can help schools and libraries offer off-premises wireless access to the Internet.




FCC OIG—Semiannual Report to Congress          12                  October 1, 2011— March 31, 2012
AUDIT ACTIVITIES

   Low Income support is designed to ensure that telecommunications services are available to
    low-income customers at just, reasonable, and affordable rates. Similar programs have ex-
    isted since at least 1985.

   Rural Health Care support provides reduced rates to rural health care providers for telecom-
    munications services and Internet access charges related to the use of telemedicine and tele-
    health. The Rural Health Care Pilot Program is a pilot funding program designed to facili-
    tate the creation of a nationwide broadband network dedicated to health care, connecting
    public and private non-profit health care providers in rural and urban locations.

FCC rules require telecommunications providers of international and interstate telecommunica-
tions services to contribute to the USF. This includes providers that offer interstate telecommu-
nications for a fee on a non-common carrier basis, interconnected Voice Over Internet Protocol
providers and payphone providers that are aggregators.

                                        Oversight Activity

Schools and Libraries Program

On March 31, 2012, OIG issued a final report on an audit of the Pittsburg Unified School Dis-
trict (“PUSD”). The objective of this performance audit was to determine the District’s compli-
ance with the Federal Communication Commission’s rules and orders governing the Universal
Service Fund Schools and Libraries Support Mechanism. This audit was selected from a statis-
tical sample of Schools and Libraries beneficiaries. The audit disclosed PUSD did not comply
with FCC rules regarding (1) application matters, (2) procurement and service provider selec-
tion matters, (3) asset and inventory records, and (4) receipt of services and reimbursement mat-
ters. Based on our findings, we recommend recovery of $2,153,888 representing the total USF
disbursement for Fiscal Years 2008 and 2009.

Contributors

On January 17, 2012, OIG issued a final report on SmartResort, Co., LLC. The objective of
this performance audit was to determine compliance with FCC rules regarding the reporting of
revenue information subject to Universal Service Fund On January 17, 2012, OIG issued a final
report on SmartResort, Co., LLC. The objective of this performance audit was to determine
compliance with FCC rules regarding the reporting of revenue information subject to Universal
Service Fund (USF) contributions on the FCC Forms 499 – A, Telecommunications Reporting
Worksheets, for the calendar years ended December 31, 2006 and December 31, 2007.

Our audit disclosed that the Company did not comply with the FCC’s rules regarding Forms
499-A and FCC Forms 449-Q for the calendar years 2007 and 2006. Also, a review of the 2008



FCC OIG—Semiannual Report to Congress           13                 October 1, 2011— March 31, 2012
AUDIT ACTIVITIES

Form 499-A, dated March 31, 2010, filed with USAC disclosed that the Company failed to re-
port properly USF surcharge revenues billed to its customers and failed to report uncollectible
revenues.

Low Income Program

On March 31, 2012, OIG issued a final report on the audit of the USF Low Income (“LI”) pro-
gram disbursement system. The purpose of the audit was to determine whether the LI disburse-
ment system was in accord with applicable law and met the goals of eliminating fraud, waste
and abuse in the USF.

We found no evidence that a projection-based system is required or needed. We also found the
risk of loss to the LI fund much greater with a projection-based disbursement system. In addi-
tion, we identified internal control weaknesses in the projection-based system.

In May of 2011, we discussed preliminary findings, conclusions, and recommendations with
FCC representatives. We were informed that FCC already planned to direct USAC to develop a
proposal for disbursing USF LI payments based upon actual claims. On January 31, 2012, the
FCC adopted the proposal to transition to a disbursement system based on actual claims. Since
FCC has taken action to replace the projection-based system, we make no formal recommenda-
tions and applaud the Commission’s action.

High Cost Program

Due to staffing losses, no oversight projects were initiated or completed during this reporting
period. OIG is currently re-staffing the High Cost team. We do, however, take note of all audit
leads from any source. Some leads may be developed into audits at a later date.

Rural Health Care

Due to staffing constraints, no oversight activity was conducted for the Rural Health Care Pro-
gram during this reporting period. We do, however, take note of all audit leads from any
source. Some leads may be developed into audits at a later date.

                            USF Reform and Oversight Planning

Reform of the USF programs – High Cost, Schools and Libraries, Low Income, and Rural
Health Care – is having a significant impact on OIG’s oversight activities. Balancing the goal
of being an agent of positive change and striving for continuous improvement in USF pro-
grams with the mission of providing assurance that programs are effective, efficient, and free of
fraud, waste, and abuse is a continuing challenge.



FCC OIG—Semiannual Report to Congress          14                  October 1, 2011— March 31, 2012
AUDIT ACTIVITIES

To address this challenge, we have initiated a comprehensive vulnerability analysis and risk as-
sessment of the USF program. We are currently gathering and cataloging data on the various
USF programs including, but not limited to, previous audit findings, proposed and/or imple-
mented changes in the programs, GAO reports and comments, the USAC Annual Report, re-
sults of investigations, and published articles and news items. The first step is to gather and or-
ganize what we know (and what we can learn) about each program. Future steps include identi-
fication of the areas where a program is vulnerable to fraud, waste, and abuse. Finally, we will
assess the risk associated with the vulnerabilities identified. This document will provide us the
information and data required for oversight planning and effective use of our limited resources.

                                 Other USF Oversight Activity

Improper Payments Elimination and Recovery Act of 2010 Compliance Audit

In accordance with Office of Management and Budget Memorandum for the Heads of Execu-
tive Departments and Agencies, M-11-16, dated April 14, 2011, the FCC Office of Inspector
General engaged the services of independent certified public accounting firm KPMG LLP to
audit FCC compliance with the Improper Payments Elimination and Recovery Act (Pub. L. 111
-204) (“IPERA”).

KPMG LLP found that “FCC complied, in all material respects, with the compliance require-
ments referred to above that could have a direct and material effect on its IPERA compliance,
as defined in guidance provided on February 23, 2012 to FCC, for the year ended September
30, 2011.”

In connection with the contract, we attended most if not all of the interviews KPMG conducted
as part of its audit; met with KPMG LLP to discuss the audit status and any outstanding issues,
reviewed KPMG LLP’s report and related documentation, and made periodic inquiries of its
representatives. We issued our report on March 15, 2012.

Universal Service Administrative Company – Internal Audit Division

The AIG for USF Oversight meets on a regular basis with USAC’s Internal Audit Division
management to share and discuss audit plans, status, and current issues.




FCC OIG—Semiannual Report to Congress           15                  October 1, 2011— March 31, 2012
INVESTIGATIONS

OIG investigations cover a wide range of topics touching on myriad aspects of the FCC’s mis-
sion and programs. Most significantly, our investigations often address allegations of criminal
misconduct or civil false claims. We deal with complex cybercrime investigations, large crimi-
nal conspiracies, and cases throughout the United States and its territories. These complex and
wide-ranging cases often require substantial investigative expertise and resources including per-
sonnel on the ground across several states, or high-grade forensic tools and the expertise to use
them. In these cases, we have always received, and are grateful for, the assistance of other
agencies, especially the Offices of Inspector General of other federal agencies, and particularly,
the Federal Bureau of Investigation (“FBI”).

In addition to investigations regarding Commission programs, the OIG investigates internal af-
fairs and examines allegations of improper employee and contractor activity implicating federal
statutes or regulations establishing standards of conduct and procedure.

Additionally, the OIG receives and investigates complaints regarding the manner in which the
FCC executes its programs, how it handles its operations administratively, and how the FCC
conducts its oversight responsibilities. Allegations come from a various sources including FCC
managers and employees, contractors, program stakeholders, and whistle blowers.

The FCC OIG, like most government offices, has an ever-increasing volume of work and lim-
ited resources. Thus, matters having the potential to significantly impact federal funds, im-
portant FCC missions or programs, or the basic integrity and workings of the agency, receive
the highest priority for investigation and assignment of resources.

Activity during This Period

At the outset of this reporting period, 113 cases were pending. Over the last six months, 15 cas-
es have been closed and 13 opened. As a consequence, a total of 111 cases are pending. OIG is
making our backlog of cases a priority in this and next fiscal years. These numbers do not in-
clude preliminary reviews of allegations, from the Hotline or other sources, or related minor ev-
idence analysis.

Statistics

Cases pending as of September 30, 2011       113
New Cases                                     13
Cases Closed                                  15
Cases pending as of April 1, 2012            111




FCC OIG—Semiannual Report to Congress           16                  October 1, 2011— March 31, 2012
INVESTIGATIONS

Significant Activities

Several of the Office’s significant activities are described below. However, we discuss investi-
gations only when and if information may be made public without negative impact on law en-
forcement activities or prosecutions. Thus, many matters could not be considered for inclusion
in this summary.

            Investigations into Fraud in the Federal Universal Service Program

The bulk of the work of FCC OIG Investigations involves investigating and supporting civil
and criminal prosecutions of fraud in the FCC’s federal universal service program. The AIGI
and Investigations staff work routinely with other state, local and federal agencies in these mat-
ters. These coordinated investigatory and prosecutorial efforts, especially those involving the
DOJ and its OIG, have resulted in many successes, including civil settlements and criminal con-
victions.

Most of our on-going universal service investigations are not known to the public and even
some closed investigations cannot be disclosed because of sensitivities that could impact related
ongoing matters. Highlighted below, are a few matters that have had public developments dur-
ing the reporting period:

Donna English and Project Managers, Inc.

In December 2010, Donna P. English, d/b/a/ Project Managers, Inc. (“PMI”), pleaded guilty to
two counts of wire fraud in violation of 18 U.S.C. § 1343, one count of mail fraud in violation
of 18 U.S.C. § 1341, and one count of theft of government funds in excess of $100,000, in vio-
lation of 18 U.S.C. § 641. English had been indicted for defrauding the FCC’s universal service
program and the River Forest Community School District located in Hobart, Indiana. English,
d/b/a/ PMI, was also charged with theft of the public money she received from the U.S. Depart-
ment of Housing and Urban Development in connection with her employment as a technology
consultant for the Michigan City Housing Authority, located in Michigan City, Indiana.

On October 13, 2011, English was sentenced in the United States District Court for the North-
ern District of Indiana to a 27 month term of imprisonment, with three years of parole following
her release. English was also ordered to provide restitution to the FCC/USAC, the River Forest
Community School Corporation and the Michigan City Housing Authority in the amount of ap-
proximately $213,000. English filed a notice of appeal of her conviction and sentence.

This case was investigated by the FCC OIG, the Antitrust Division of the United States DOJ,
the United States Department of Education Office of Inspector General, the United States Postal
Inspection Service, the Indiana State Police, and the Housing and Urban Development Office of



FCC OIG—Semiannual Report to Congress           17                  October 1, 2011— March 31, 2012
INVESTIGATIONS
Inspector General.

Gloria Harper

On June 2, 2011, Gloria Harper pleaded guilty in United States District Court in New Orleans of
participating in a conspiracy to defraud the FCC’s universal service program. Specifically, Har-
per, a former co-owner of Global Networking Technologies, Inc. and former owner of Comput-
er Training Associates, pleaded guilty to participating in a conspiracy to provide bribes and
kickbacks to school officials and employees responsible for the procurement of Internet access
at schools in Arkansas, Florida, Illinois and Louisiana.

On February 9, 2012, Harper was sentenced to serve 30 months in prison for her participation in
the conspiracy. In June 2011, Harper’s co-conspirators Tyrone Pipkin and Barrett White were
each sentenced to serve one year and one day in prison for their roles in the conspiracy.

OIG assisted in this investigation with the Federal Bureau of Investigation, the Department of
Justice Antitrust Division’s Dallas Field Office and the U.S. Attorney’s office in the Eastern
District of Louisiana.

Jonathan Slaughter

On January 12, 2012, Jonathan M. Slaughter, owner and president of E-Rate Consulting Ser-
vices, LLC in Montgomery, Alabama, was sentenced in United States District Court in the Mid-
dle District of Alabama to 51 months in prison following his guilty plea in September 2011 to
one count of mail fraud. Slaughter pleaded guilty to stealing nearly $900,000 intended for 20
school districts or private schools in 13 states, by fraudulently converting school funds.

OIG assisted in this investigation with the Federal Bureau of Investigation and the Education
Office of Inspector General.

Suspension & Debarment

Following successful prosecutions from OIG investigations, FCC’s Enforcement Bureau initiat-
ed several suspension proceedings. In November 2011, Barrett White was suspended from par-
ticipating in the E-Rate program for three years. Tyrone Pipkin was suspended for three years
starting in December 2011, and Jeremy Sheets for three years from February 2012. In March
2012, the Commission issued a Notice of Suspension and Debarment Proceedings against Glo-
ria Harper.




FCC OIG—Semiannual Report to Congress          18                  October 1, 2011— March 31, 2012
INVESTIGATIONS

 Investigation into Fraud in the Federal Communications Commission Telecommunica-
                                   tions Relay Service

The OIG is continuing its work with the Criminal Division of DOJ and the FBI on several
investigations involving fraud on the FCC’s Telecommunications Relay Service (“TRS”) Fund
program.

The FCC established the TRS program pursuant to section 225 of the Communications Act of
1934, as amended. Section 225 requires the FCC to ensure that TRS is “available to the extent
possible and in the most efficient manner to hearing-impaired and speech- impaired individuals
in the United States.” 47 U.S.C. § 225. TRS permits hearing- or speech-impaired individuals
to communicate over the telephone or other telecommunications transmissions by using a
trained interpreter called a communications assistant. Private sector entities that are either part
of certified state programs or certified by the FCC provide TRS for telecommunications calls to
or from hearing or speech impaired individuals and are then compensated through the FCC’s
TRS program at a rate, set by the FCC, per minute of use as reported monthly by the entity to
the FCC’s TRS Fund Administrator. The TRS program is funded by assessments on interstate
telecommunications carriers that are passed on to consumers through the rates they pay for tele-
communications services.

Video Relay Service (“VRS”) is a form of TRS that allows individuals with hearing disabilities
to use sign language to communicate with voice telephone users through video equipment, a
broadband connection, and use of a communications assistant who is a trained video interpreter
(“VI”). Until just recently, VRS-related claims on the FCC’s TRS Fund increased significantly.
80% of TRS Fund payments are made to VRS providers.

Prosecutions of those indicted in November 2009, on allegations of submitting false or fraudu-
lent claims for reimbursement for VRS were completed during this reporting period. DOJ ob-
tained a guilty plea from the single corporation that was indicted, as well as guilty pleas from,
or the convictions of, all but one of the individuals that were indicted. The remaining individual
received a pre-trial diversion (probation). During the reporting period, sentencing of the indi-
viduals who pleaded guilty commenced. John Yeh and his brother, Joseph Yeh, principals at
Viable Communications, Inc., an uncertified provider of VRS, were sentenced to 108 months in
prison, followed by 3 years of supervised release, and 55 months in prison, followed by 3 years
of supervised release, respectively. In addition, they were ordered to pay, jointly and severally,
restitution of $20 million. Larry Berke was sentenced to 24 months in prison, followed by 3
years of supervised release, and ordered to pay, jointly and severally with convicted co-
defendants, restitution of $2.5 million and to forfeit $2.5 million. Several other individuals
have been sentenced to date receiving varying lengths of probation, some with special condi-
tions such as home confinement and electronic location monitoring. All were ordered to pay
restitution.



FCC OIG—Semiannual Report to Congress           19                  October 1, 2011— March 31, 2012
INVESTIGATIONS


During the reporting period, OIG worked with the FBI and the DOJ Criminal Division to indict
two additional individuals, operating in conjunction with a VRS provider not previously impli-
cated, for defrauding the TRS Fund in connection with the provision of VRS. The indictment
alleges that the individuals engaged in fake marketing and outreach schemes, in addition to oth-
er methods of pumping the minutes of use for which the provider they were working for was
compensated.

The OIG continues to receive and investigate allegations of fraud on the TRS Fund through use
of VRS. Although the Commission instituted rules to eliminate the use of “white labels”
(entities who are not certified by the Commission to offer VRS service, but do so by contracting
their services to certified providers) OIG continues to receive allegations that these entities con-
tinue to provide service and may be involved in minute pumping activities.

In addition to working with the Criminal Division of DOJ, OIG is also supporting the Civil Di-
vision in the investigation of a Qui Tam case (federal false claims action brought, in the name of
the United States by a private citizen, the relator) against AT&T, for allegedly defrauding the
TRS Fund in its provision of IP Relay, another form of TRS that allows individuals with hearing
disabilities to communicate with voice telephone users through an internet connection and a
communications assistant. On March 22, 2012, the government filed its complaint in the case
alleging that, by knowingly violating FCC rules, AT&T processed IP Relay calls that were
made, not by individuals with hearing or speech disabilities, but rather by hearing individuals,
often residing in foreign locations, for the purpose of defrauding merchants.

             Investigations into Fraud in Recovery Act Funded FCC Contracts

The American Recovery and Reinvestment Act of 2009 (“Recovery Act”) identified two pro-
grams under which the FCC has responsibilities: the Digital-To-Analog Converter Box Pro-
gram (“DTV”) and a program to develop a national broadband plan. As of March 1, 2012, the
Commission had obligated over $98 million of the Recovery Act funds and had paid out over
$94 million in furtherance of these programs. Of the $98 million in obligations, $62 million
was obligated for DTV-related contract awards and $36 million was obligated for contract
awards related to development of a national broadband plan.

The OIG has received and continues to receive allegations of fraud, waste, abuse and miscon-
duct in the Recovery Act programs from a variety of sources, including the OIG Hotline, news
reports, and the FCC’s Office of Managing Director. Presently, the FCC OIG has 31 active in-
vestigations. OIG investigations have revealed indications of fraud, as well as a number of con-
tractual problems including invoice issues and issues involving verification of performance.




FCC OIG—Semiannual Report to Congress           20                   October 1, 2011— March 31, 2012
INVESTIGATIONS

The nation-wide DTV transition occurred on June 12, 2009. The digital deadline prompted
consumers across the nation to enlist the services of vendors working under contract with the
FCC, to provide free in-home installation of converter boxes. Installation vendors performed
an estimated 286,000 successful installations nationwide. Installation assistance services ended
August 31, 2009. During the weeks surrounding the transition date, the FCC also established
DTV information centers throughout the United States, allowing consumers to obtain first hand
demonstrations and information about DTV. The FCC has provided thousands of consumers
help with their DTV- related questions through the FCC Call Center as well. All Recovery Act-
funded DTV activities ceased as of September 30, 2010. The FCC Call Center remains availa-
ble to help consumers with DTV- related questions, but is no longer funded with Recovery Act
funds.

The FCC has also completed its work with regard to the development of a national broadband
plan. The goal of the National Broadband Plan was to ensure that all people of the United
States have access to broadband capability and to establish benchmarks for meeting that goal.
The Plan was publicly released on March 16, 2010, and is available at: www.broadband.gov.
Since delivering its plan to Congress, the FCC continues to work with NTIA and the Depart-
ment of Agriculture to move Recovery Act programs forward.

NVP

OIG closed a case that had been opened in July 2009 involving allegations that a DTV contrac-
tor obtained federal funds by submitting fraudulent invoices to the FCC for work not actually
performed under a contract funded by the Recovery Ac. After performing site visits and inter-
viewing store personnel where contractor certified its performance on the contract, investigators
found no evidence that the contractor the performed walk-in/static clinics at the locations it
claimed. DOJ and local prosecutors declined federal prosecution of this matter due to the small
dollar value. However, the FCC OIG and the Office of Managing Director were able to recov-
er $14,950 from the contractor, roughly two-thirds of the amount previously paid to the contrac-
tor.

                                        Internal Affairs

The Inspector General is authorized by the IG Act to investigate allegations of fraud, waste and
abuse occurring within Federal Communications Commission. Matters of possible wrongdoing
are referred to the OIG in the form of allegations or complaints from a variety of sources, in-
cluding FCC employees, contractors, other government agencies and the general public.

 Highlighted below, are a few matters that have had public developments during the reporting
period:




FCC OIG—Semiannual Report to Congress          21                  October 1, 2011— March 31, 2012
INVESTIGATIONS

Misuse of Government Equipment

OIG closed a case this reporting period that was referred by the FCC Information Technology
Center (ITC) last reporting period. FCC ITC had completed a general search of all FCC
network users and determined that an FCC employee had been using unusually large amounts of
bandwidth. Based upon the review of the evidence collected in this investigation, OIG deter-
mined that the subject of investigation had been involved in extensive, personal, non-worked
related use of an FCC computer, use that appeared to go beyond the FCC’s policy permitting
“limited personal use” of computer systems. FCC OIG concluded its investigation and referred
the matter to the Office of Managing Director for action.

Employee Conducting Non-FCC Business On Official Time and While Teleworking

OIG closed a case this reporting period that was referred by the Office of Managing Director
(”OMD”) regarding an OMD employee alleged to have been conducting an outside business
activity while on official government time. Based evidence collected in this investigation, FCC
OIG concluded the subject of investigation had been involved in conducting an outside business
activity and doing so while on official government time, including while telecommuting. In
fact, the subject admitted to having engaged in such conduct. FCC OIG concluded its investiga-
tion and referred the matter to OMD for appropriate action.

 Frequent Visitors

Two investigations that were opened and closed during this reporting period were initiated in
response to an anonymous caller to the FCC OIG Hotline. The anonymous caller alleged abuse
of frequent visitor badges issued by the FCC. One matter included allegations that a frequent
visitor badge holder was gaining unauthorized access to secured workspaces throughout the
FCC headquarters. After investigation, OIG determined the allegations were credible and re-
ferred this matter to the FCC Security Office for appropriate action. In turn, the FCC Security
Office permanently revoked the subjects’ frequent visitor badge and access to the FCC.

A second matter involved allegations that a frequent visitor badge holder was accessing the pub-
lic research center before the reference center opens to the public. After investigation, the OIG
determined the allegations were credible and referred this matter to the FCC Security Office for
appropriate action. The FCC Security Office adjusted the frequent visitor badge access hours to
coincide with the FCC Visitor Hours.

Denial of Service Attacks by Private Citizen

In December 2010, ITC learned of an apparent ‘denial of service’ attack on FCC computer sys-
tems. The origin of the attack appeared to be several IP addresses belonging to a wireless phone



FCC OIG—Semiannual Report to Congress          22                  October 1, 2011— March 31, 2012
INVESTIGATIONS

user. The OIG reviewed all FCC website contact from the subject IP addresses, which totaled
several thousand hits, and determined that most of these hits were applications for FCC Regis-
tration Numbers. Subsequently, in July 2011, ITC reported to the OIG that the subject also
may have hacked into FCC online databases. Working with DOJ attorneys, OIG was able to
secure a court order prohibiting the subject from accessing the Commission’s systems.

Referral from Another Federal Agency

OIG closed an investigation which had been opened in a prior reporting period in response to a
request for assistance from another Federal agency’s Office of Inspector General. An anony-
mous letter alleged that an employee of that agency’s OIG was conducting personal business
on government time and misusing government equipment and supplies. After reviewing avail-
able data and conducting interviews, the FCC OIG determined that the evidence supported a
finding that the employee was engaged in conducting an outside business activity while on
government time, utilizing government equipment. The employee admitted to having conduct-
ed some non-work related activities while on official government time and also admitted to us-
ing a government copy machine to make personal copies. FCC OIG referred the matter to the
requesting OIG for appropriate action.

In addition to the above-described cases, the OIG also investigated numerous allegations relat-
ing to a wide range of internal matters such as use of travel funds, conflict of interest and hiring
practices, that did not result in findings requiring further action.

                     Internal FCC Policy Review and Recommendations

The OIG investigates a variety of matters involving inappropriate use of government equip-
ment, including computers. When conducting such investigations, one of the first steps is to
determine if the FCC employee has a signed Rules of Behavior (“ROB”) form on file. This is a
written acknowledgement by the individual of the appropriate uses of the FCC issued comput-
er. The ROB also acknowledges that computer use is subject to review and that misuse can
give rise to disciplinary action. During the reporting period, OIG investigators reviewed ROB
forms on file and found that not all Commission employees have signed ROB forms on file.
OIG referred this issue to the Office of Managing Director and Information Technology Office
for action and follow-up. A complete review of the program to assure that all FCC employees
and contractors have completed ROBs on file will improve the effectiveness and efficiency of
operations and compliance with FCC policies and procedures.




FCC OIG—Semiannual Report to Congress            23                  October 1, 2011— March 31, 2012
INVESTIGATIONS

OIG Hotline

The FCC OIG maintains a Hotline to facilitate the reporting of allegations of fraud, waste,
abuse, mismanagement or misconduct in Commission programs or operations. Commission
employees and concerned citizens may report such allegations to the Hotline at (202) 418-0473
or toll free at (888) 863-2244 or by e-mail at hotline@fcc.gov. OIG’s Hotline is available 24
hours a day, seven days a week via a recorded messaging system. The OIG Hotline continues
to be a vehicle by which Commission employees and parties external to the FCC can contact
OIG to speak with a trained Hotline technician. Callers who have general questions or con-
cerns not specifically related to the missions or functions of the OIG office are referred to the
FCC Consumer Center.

Upon receipt of a specific allegation of fraud, waste, abuse, or mismanagement, the OIG may
take any one of the following actions:

(1) open an OIG investigation or audit;

(2) refer the matter to FCC management for appropriate review and action; or

(3) refer the allegation to another Federal agency, most often the Federal Trade Commission
(“FTC”). For example, complaints about fraudulent sweepstakes are referred to FTC, the na-
tion’s consumer protection agency.

During the current reporting period, OIG received 1,040 Hotline contacts. Of these, 27 were
referred to OIG Investigations for possible case openings, 533 were referred to FCC Consumer
Center, and 480 were referred to the FTC.




FCC OIG—Semiannual Report to Congress          24                  October 1, 2011— March 31, 2012
REPORTING REQUIREMENTS

The following are the Office of Inspector General response to the 12 specific reporting require-
ments set forth in Section 5(a) of the Inspector General Act of 1978, as amended.

1. A description of significant problems, abuses, and deficiencies relating to the administration of
programs and operations of such establishment disclosed by such activities during the reporting pe-
riod.
Please refer to the sections of this report titled “Universal Service Fund Oversight” and
“Investigations.”

2. A description of the recommendations for corrective action made by the Office during the report-
ing period with respect to significant problems, abused, or deficiencies identified pursuant to para-
graph (1).
Please refer to the section of this report titled “Universal Service Fund Oversight” and
“Investigations.”

3. An identification of each significant recommendation described in previous semiannual reports
on which corrective action has not yet been completed.
No significant recommendations remain outstanding.

4. A summary of matters referred to authorities, and the prosecutions and convictions which have
resulted.
Please refer to the section of this report titled “Investigations."

5. A summary of each report made to the head of the establishment under section (6) (b) (2) during
the reporting period.
No report was made to the Chairman of the FCC under section (6) (b) (2) during this reporting pe-
riod.

6. A listing, subdivided according to subject matter, of each audit report issued by the Office during
the reporting period, and for each audit report, where applicable, the total dollar value of questioned
costs (including a separate category for the dollar value of unsupported costs) and the dollar value
of recommendations that funds be put to better use.
Each audit report issued during the reporting period is listed according to subject matter and de-
scribed in the “Audit Areas” section.

7. A summary of each particularly significant report.
Each significant audit and investigative report issued during the reporting period is summarized
within the audits and investigations sections and in Tables I and II of this report.

8. Statistical tables showing the total number of audit reports with questioned costs and the total
dollar value of questioned costs.
The required statistical table can be found at Table I to this report.




FCC OIG—Semiannual Report to Congress             25                   October 1, 2011— March 31, 2012
REPORTING REQUIREMENTS

9. Statistical tables showing the total number of audit reports with recommendations that funds be
put to better use and the total dollar value of such recommendations.
We issued no reports with recommendations that funds be put to better use during the reporting
period.

10. A summary of each audit report issued before the commencement of the reporting period for
which no management decision has been made by the end of the reporting period (including the
date and title of each such report), an explanation of the reasons why such a management decision
has not been made, and a statement concerning the desired timetable for achieving a management
decision on each such report.
No audit reports fall within this category.

11. A description and explanation of the reasons for any significant revised management decision
made during the reporting period.
No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector General
is in disagreement.
No management decisions fall within this category.

13. Information described under section 05(b) of the Federal Financial Management Improvement
Act of 1996.
No reports with this information have been issued during this reporting period.

 Table I: OIG Reports With Questioned Costs
                                                           Number of   Questioned    Unsupported
 Inspector General Reports With Questioned Costs
                                                           Reports     Costs         Costs
 A. For which no management decision has been made             1       $2,1538,888        _
 by the commencement of the reporting period.
                                                               1       $2,1538,888        _
 B. Which were issued during the reporting period.

 C. For which a management decision was made during            _            _             _
 the reporting period.
                                                               _            _             _
 (i) Dollar value of disallowed costs
                                                               _            _             _
 (ii) Dollar value of costs not disallowed
 D. For which no management decision has been made             1       $2,1538,888        _
 by the end of the reporting period.
 E. For which no management decision was made with-            _            _             _
 in six months of issuance




FCC OIG—Semiannual Report to Congress                 26                    October 1, 2011— March 31, 2012
APPENDIX

Results of Peer Reviews

As required by Public Law 111-203, we are pleased to report that the OIG of the Equal Em-
ployment Opportunity Commission conducted a peer review of this office during the reporting
period and its review disclosed no recommendations for any corrective actions. The peer re-
view report, dated August 3, 2010, concluded the system of quality control for the FCC OIG
provides reasonable assurance of performing and reporting audits in conformity with applicable
professional standards in all material respects and FCC OIG has received a peer review rating
of pass.

In addition, we completed a peer review of the National Archives and Records Administration
(“NARA”) OIG during the reporting period. The peer review report, dated September 22,
2011, concluded the system of quality control for the NARA OIG provides reasonable assur-
ance of performing and reporting audits in conformity with applicable professional standards in
all material respects and NARA OIG has received a peer review rating of pass.




FCC OIG—Semiannual Report to Congress         27                  October 1, 2011— March 31, 2012
Report fraud, waste or abuse to:
Email:         Hotline@FCC.gov

Call Hotline:         202 418-0473
                 Or
                      888-863-2244




                                Office of Inspector General
                           Federal Communications Commission
                            445 12th Street S.W. Room 2-C-762
                                  Washington, DC 20554
                                 WWW. FCC.GOV/OIG




FCC OIG—Semiannual Report to Congress      28              October 1, 2011— March 31, 2012
